<html>
<title> - OVERSIGHT OF THE GOVERNMENT PUBLISHING OFFICE: OFFICE OF THE INSPECTOR GENERAL</title>
<body><pre>[Senate Hearing 116-56]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 116-56

                      OVERSIGHT OF THE GOVERNMENT
                           PUBLISHING OFFICE:
                    OFFICE OF THE INSPECTOR GENERAL

=======================================================================

                                HEARING

                              BEFORE THE

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2019

                               __________

    Printed for the use of the Committee on Rules and Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on http://www.govinfo.gov
                  
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-366                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>                           
                  
                  
                  
                  
                  
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             FIRST SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Michael P. Leary, Inspector General, Government Publishing Office     2

                         Prepared Testimony of:

Michael P. Leary, Inspector General, Government Publishing Office    11

                  Materials Submitted for the Record:

Memorandum to Inspector General for the Government Publishing 
  office from the United States Marshals Service.................    21
The New Statutory Law Enforcement Authority for OIG Criminal 
  Investigations article published by Glenn A. Fine..............    24
Congressional Research Service article published by Wendy 
  Ginsberg.......................................................    32

                  Questions Submitted for the Record:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Michael P. Leary, Inspector General, Government 
  Publishing Office..............................................    41
Hon. Hon. Amy Klobuchar, a U.S. Senator from the State of 
  Minnesota to Michael P. Leary, Inspector General, Government 
  Publishing Office..............................................    50
Hon. Cortez Masto, a U.S. Senator from the State of Nevada to 
  Michael P. Leary, Inspector General, Government Publishing 
  Office.........................................................    54

 
             OVERSIGHT OF THE GOVERNMENT PUBLISHING OFFICE:
                    OFFICE OF THE INSPECTOR GENERAL

                              ----------                              


                        WEDNESDAY, JULY 24, 2019

                       United States Senate
              Committee on Rules and Administration
                                            Washington, DC.
    The committee met, pursuant to notice, at 11 a.m., in Room 
301, Russell Senate Office Building, Hon. Roy Blunt, Chairman 
of the committee, presiding.
    Present: Senators Blunt and Hyde-Smith.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Certainly, in the middle of voting and 
other things we are doing, I am glad that my colleague, Senator 
Hyde-Smith, has joined me today. Now, this is the authorizing 
committee for the Government Publishing Office, and Senator 
Hyde-Smith chairs the legislative branch appropriating sub-
committee as well as being on this committee, so it is a real 
opportunity for us to talk about this important department, and 
frankly, some of the challenges it has. Glad to welcome Michael 
Leary the Inspector General of the Government Publishing Office 
and thank you for joining us.
    In 1860, Congress created the Government Printing Office in 
response to the high cost and inefficiencies of contracting 
with private printers for the public distribution of Government 
documents. 159 years later, the Government Printing Office 
continues to carry out its unique mission of keeping America 
informed by printing distributed documents that contribute to 
the historical record of our Government's work, ranging from 
the Emancipation Proclamation to yesterday's Congressional 
Record.
    The rapid advance in printing and digital technologies has 
also resulted in a real transformation at the Government Office 
tasked with making this information available, but now doing 
that in ways that would not have been anticipated just a few 
years ago. In 1988, Congress established the current Office of 
Inspector General to examine the GPO's operations and recommend 
policies to enhance its effectiveness. The Director of the GPO 
appoints the Inspector General, who operates independently to 
ensure the agency and Congress receive objective information 
and reviews of the agency's administration. The Inspector 
General routinely conducts operational audits, reviews 
legislative impact on the agency, and reports deficiencies to 
both the Director of the GPO and the Congress.
    Mr. Leary began his tenure as the GPO Inspector General 
this past April. Prior to his appointment, he served as a 
Colonel in the United States Marine Corps and held Senior 
Advisory positions within the Department of Treasury, the 
Department of Homeland Security, and the Office of the Director 
of National Intelligence. Mr. Leary also recently served as an 
Executive for Strategic Planning for the Council of Inspectors 
General on Integrity and Efficiency.
    This is an area, Mr. Leary, that has had some lack of 
permanent leadership for a long time. The fact that you are the 
third Inspector General would indicate just part of that 
problem. The Director of the now known as the Government 
Publishing Office position has been vacant since October 2017. 
As of April of this year, 5 of the 10 GPO executive leadership 
team positions are vacant with employees serving in an acting 
capacity. You are the third IG appointed by the Acting Deputy 
Director since March 2018.
    Hope you are going to be there a while, but I am anxious to 
hear what, from April to today, your view is of this agency, 
what you see as your role within this agency, and whatever else 
you can share with us today. I would like you to start with no 
more than 5 minutes of testimony, and we have got your written 
testimony for the record, summarize that, however you would 
like to, and then I am sure we will both have some questions 
for you.

   STATEMENT OF MICHAEL LEARY, INSPECTOR GENERAL, GOVERNMENT 
                        PUBLISHING HOUSE

    Mr. Leary. Chairman Blunt and Senator Hyde-Smith thank you 
for the opportunity to testify before the committee on my first 
4 months as the Inspector General of the Government Publishing 
Office. Allow me at this point to also introduce behind me my 
General Counsel, Anthony Febbo, one of my Senior Investigators, 
Eric Duncan, my new Assistant Inspector General for 
Investigations and the General Counsel for the IG for the 
Library of Congress, Deborah Lehrich. I look forward to sharing 
my thoughts on the state of the agency and my office as I first 
found them, and on my thoughts regarding how the Office of the 
Inspector General can help GPO succeed in its mission going 
forward.
    I will also take this opportunity to identify certain 
obstacles to accomplishing the OIG mission, and to offer my 
thoughts on how to address them. As the Inspector General of a 
Legislative Branch agency, I see the Congress, through my 
oversight committee, as not only a stakeholder along with my 
agency leadership in the public, but also as a partner, and as 
an advisor. I am fully committed to working closely together 
with you, your staff, maintaining transparency in my 
interactions with you, and keeping you fully informed about my 
findings and my recommendations.
    I provided a full written statement to the committee so I 
will just briefly highlight a few areas in this opening 
statement which I think might be worthwhile exploring today. In 
my first months on the job, I have encountered a proud and 
dedicated work force at GPO who believe in their agency, their 
mission, and the necessity to adapt, but my initial assessments 
is that they want certainty and commitment from Congress and 
the Administration in the form of a nominated and confirmed 
Director, and they want adequate investment to enable their 
success. Unfortunately, I did not find a GPO IG office that was 
positioned to help GPO succeed. To rectify that, I have taken 
immediate actions to change the focus, policies, and the 
practices of my office.
    Through hiring, training, and partnership with the IG 
community and CIGIE, I will permanently change my office's 
culture and as a result its value to GPO. I have had the 
cooperation and engagement of GPO's leadership since arriving. 
I believe they are committed to the independence of the 
Inspector General and to a constructive relationship between 
the agency and my office. But beyond this, there are some 
serious concerns going forward, issues particular to my office 
and to Legislative Branch agencies. Some answers to which lie 
perhaps only with Congress. These include potential long-term 
solutions for greater Inspector General independence and work 
product integrity, and rectifying encroachments on my ability 
to conduct law enforcement activities.
    In these next 3 months, I will be publishing a semi-annual 
report, a new work plan for 2020, and a new 5-year strategy. 
The creation of these documents will be critical enablers to 
instituting my vision for this office of a team-based 
collaborative culture that produces reliable reports with 
strategic impact. I would welcome engaging with you and your 
staff as these are implemented.
    Thank you again, and I look forward to your questions.
    [The prepared statement of Mr. Leary was submitted for the 
record.]
    Chairman Blunt. Well, thank you, Mr. Leary, and again, we 
are pleased you are here. With all the acting positions there, 
the recent retirements, the acting positions, what kind of 
leadership challenge has that created at GPO?
    Mr. Leary. Senator, thank you for that. My own observation 
is that there is a level of uncertainty about the direction 
that GPO will be going in. I know that GPO has published, just 
recently under Mr. Crawford, a new strategy, but I think 
anybody who takes over that agency would probably want to put 
out their own strategy as soon as they take the office.
    Chairman Blunt. Did you also just say that you were going 
to propose a new 5-year strategy yourself?
    Mr. Leary. Mine is due in October. The current 5-year 
strategy expires at the end of this Fiscal Year.
    Chairman Blunt. At the front end of that 5-year strategy, 
what would be the top three challenges you would think the next 
Director would have?
    Mr. Leary. GPO is a business. It has to remain relevant to 
the customer, and the customer is principally Congress, but 
also the broader Government in general, and it has to be able 
to figure out how to provide cost-effective, efficient delivery 
of products. It has to be cutting edge. Those are the 
challenges, I think, that are fairly obvious to me for this 
agency. It needs permanent leadership in order to ensure that 
it can get to that point and stay there.
    Chairman Blunt. How many employees are at GPO now?
    Mr. Leary. There are almost 1,800.
    Chairman Blunt. 1,800. How many different facilities are 
out there?
    Mr. Leary. There are eight offsite facilities, but I could 
be--I think it is about eight.
    Chairman Blunt. Not at all used like they would have been 
used 20 years ago by any stretch of the imagination, is that 
correct?
    Mr. Leary. Yes. Some of them are just warehousing. Some are 
distribution points.
    Chairman Blunt. The structure here, you mentioned 
customers, which would be Congress, also the State Department, 
passports being one of the highly secure things that GPO does. 
This is set up to where the other agencies actually wind up 
transferring funds or they actually--GPO competes for that 
business in some cases and in other cases doesn't compete but 
clearly has a functioning customer sort of basis in the model. 
Is that right?
    Mr. Leary. That is right. Right. With SID, the Secure and 
Intelligent Documents Division, their principal customer is the 
State Department, and that is in part because we insist on the 
passports needing to be securely produced, and we are the only 
people who can provide that for them. They are a principal 
customer, maybe even could be considered a sole customer.
    Chairman Blunt. Well, you know, one of the goals I think in 
the current strategic plan is to exceed the customer's 
expectations. Do you have a belief that that really is 
happening?
    Mr. Leary. You know, at this point, I am not well informed 
enough. I can tell you that there is an inspection that we are 
getting ready to institute, or initiate I should say, with the 
Secure and Intelligent Document Division to examine just that 
point, whether or not the customer, State Department's 
expectations, are going to be met with the delivery of this new 
process for creating secure passports.
    Chairman Blunt. Are you comfortable with the security 
provisions of the passport part of the operation?
    Mr. Leary. I am aware of the questions. I am not informed 
at this point as to whether to make an opinion about their 
sufficiency, but that will be one thing that I think would be 
part of examining whether the customer is getting what they 
asked for.
    Chairman Blunt. Have you looked at past challenges that the 
agency may have had on harassment or discrimination?
    Mr. Leary. I am aware of those accusations. I do not know 
of any current issues that my office would be looking at.
    Chairman Blunt. Well, you can help me out here, but were 
those accusations in the past or were those actual findings of 
discrimination or harassment?
    Mr. Leary. I would have to get back with you as to whether 
there were findings or just accusations.
    Chairman Blunt. Alright. Senator Hyde-Smith. I will come 
back with some more questions here in a minute.
    Senator Hyde-Smith. Thank you, Mr. Chairman, very much, and 
thank you, Mr. Leary, for being here and all your staff that 
you have with you. We certainly appreciate your attendance 
today and your credible testimony. Having just been appointed 
in April, you have served in this position for only a few short 
months. However, you bring to the job many years of experience 
with the Executive Branch and with the Council of Inspectors 
General on Integrity and Efficiency. I certainly look forward 
to learning more about your plans. The GPO is important to the 
daily operations of not only Congress but also the Federal 
Government as a whole. I would like to make sure that as we 
carry out this oversight of GPO, that we are doing everything 
possible to help the agency run effectively.
    Mr. Leary, what do you believe to be the most critical risk 
the GPO should address in the coming year?
    Mr. Leary. In the coming year? I have been made aware that 
GPO is investing in leading technology for digital printing. I 
think that is smart and that is important. One thing that I 
mentioned in my written testimony that may be beyond GPO as an 
agency to address on its own, the physical plant is in, I 
think, obvious need of significant investment.
    They are doing the best they can with the space that they 
have, but it is a building that is over 100 years old. It is a 
wonderful red brick building, it has iconic facade to it, but 
if you were to take a tour of the place, you would realize--if 
you are thinking about a competitive business model and you 
think about publishing in the private sector, you would not be 
envisioning, I think, this nice red brick building across the 
street, you would be thinking about something else.
    We are going to need, if we are going to stay in front of 
and be a premier option for the Government, we are going to 
need to be able to invest in the infrastructure. That is much 
more than a year away.
    Senator Hyde-Smith. To accomplish this goal that you have 
envisioned here, and we certainly want you to have those 
adequate resources, how far are we from having those adequate 
resources? Where do we stand, and how can we help you 
accomplish those goals?
    Mr. Leary. This is a question that probably I should be in 
a position to advise on, but it is mostly for GPO leadership to 
speak on. I will say I have looked at the budget over the last 
10 years just in preparation for sitting here, not an expert by 
any means, but my own observation is that the budget in real 
dollars has only gone down in the last 10 years. When you think 
about what do they have to invest in long-term infrastructure 
improvements?
    I think there is a challenge that they have to address--
where we are going to place our resources. It is the same 
challenge we all have. Whatever agency you come from, wherever 
you work, it is all the same in Federal Government, but when 
you make a decision to build a new stadium, what is that based 
on? Well, I do not know. We have got lots of problems, lots of 
near term issues. Somebody has to say it is time to make a big 
step and maybe that is something to think about.
    Senator Hyde-Smith. Thank you very much.
    Chairman Blunt. On that topic in terms of the budget, I 
would assume actually most printing efforts everywhere probably 
gone down in cost in recent years, the way you do this, the way 
you prepare the document, the way you set the type, the way 
that a lot of it is now probably made available, you do all of 
the preparation work, but the numbers that you used to print 
probably not printed, that seems totally reasonable to me. Now, 
I think maybe you were making the point that while the budget 
has gone down there, the maintenance budget, the sustaining the 
buildings, the sustaining the equipment, has not reflected any 
need there.
    Mr. Leary. That is right, Senator. My, again take it for 
what it's worth, my own observation on the opportunity I have 
had to look at this is that there has to be some major 
strategic thinking about the physical plant and the 
infrastructure, and maybe that means making a major financial 
investment in the building.
    Chairman Blunt. Some of the buildings are being used for 
archival and other storage now, is that right?
    Mr. Leary. That is right. Exactly. There are a number of 
facilities around the country that we have. There are some 
major facilities, there is one in Maryland, there is one in the 
Stennis facility in Mississippi, and there is another facility 
out in Colorado. That is a major facility, but we have other 
smaller facilities.
    Chairman Blunt. From the point of view of your work as a 
Legislative Branch Inspector General, can you describe the 
differences in being a Legislative Branch Inspector General and 
an Executive Branch Inspector General?
    Mr. Leary. Some of them are formal. The Inspector General 
Act of 1978, the amendments of 1988, the amendment just a 
couple of years ago, all those apply to Executive Branch 
Inspectors General. They only informally apply to Legislative 
Branch Inspectors General. We operate under Title 44 in my 
agency. My authorities reference the Inspector General Act but 
do not incorporate it. Things like, look, if my boss wants to 
fire me, he can fire me.
    Chairman Blunt. You are appointed by the head of the 
agency, of the GPO?
    Mr. Leary. Right. In the Executive Branch, there is a 30-
day notice requirement. If he does not like what I say here 
today, I can walk back, and he could walk me out. That is one 
thing that is different. Some of the other harmonizing issues 
are what do you pay an IG? That is set in law on the Executive 
Branch side. It is not set in law on my side. Another major 
issue is law enforcement, and I hope we have time for a more 
deeper dive into the law enforcement piece of this, but 
Legislative Branch agencies do not have law enforcement 
authority vested in them. They have to get it from, and 
ironically enough, an Executive Branch agency.
    Chairman Blunt. Do you want to talk about the law 
enforcement piece of this today?
    Mr. Leary. Absolutely.
    Chairman Blunt. Tell me what you are thinking is what you 
should do from a law enforcement perspective to be sure that 
your job is being done the way you think it should be done.
    Mr. Leary. The business of the GPO is, I would say, 
substantially carried out through the awarding of procurement 
contracts. $387 million in contract money was awarded in the 
last Fiscal Year through 87,000 or 85,000 different orders. It 
does not take a brain surgeon to realize there is an 
opportunity for fraud there. A major part of my 
responsibilities as an Inspector General is to investigate that 
fraud. That fraud happens all over the country.
    My agents go to all four corners of the country. They were 
just out in California. We actually have an open investigation 
in Florida right now. They have to travel to serve warrants, to 
issue subpoenas, to make seizures, to do interviews, to 
participate in a surveillance, in joint investigations. All 
those things involve law enforcement authority. I have seven 
agents in my investigations division to include my Assistant 
Inspector-General for Investigations.
    When I got into the office, all seven of those positions 
were authorized law enforcement positions. As of next Friday, 
two out of seven will be authorized to carry their weapons and 
execute law enforcement authority. In 3 months, I have lost 75 
percent of my law enforcement authority.
    Chairman Blunt. How did that happen?
    Mr. Leary. Because we depended upon an Executive Branch 
process to provide what we call blanket deputation, which is a 
period of time to an individual where they were given law 
enforcement authority, in this case specifically, we had a 10-
year relationship with the U.S. Marshal Service. Other 
agencies, both within the Executive and the Legislative Branch 
have the same relationship with the Marshal Service. There was 
a well-instituted process where we would fill out a 
certification and provide it to them. They would process it, 
and then they would certify or deputize my agent. They just 
stopped doing that sometime last year. No explanation, no 
engagement, and now they do not even answer my emails.
    Chairman Blunt. They being who?
    Mr. Leary. The Marshal Service.
    Chairman Blunt. The Marshal Service does not respond to the 
need for you to have the agency you traditionally had?
    Mr. Leary. No, either to be re-certified or certified. You 
know, it seems to me the mistake was we put our trust in a 
process that relied upon an agency to make, I guess, decisions 
that depended on who the lawyer was that sat in a particular 
chair. For 10 years, they thought it was okay. Now they do not 
think it is okay. I have heard secondhand that they had an 
issue with separation of powers. As a lawyer myself, and take 
that for what it's worth, I do not put any real weight on that 
conversation or that argument. Marshal Services can deputize 
anybody. There is no separation of powers issues in their 
authority to do that.
    Chairman Blunt. Give me an example of why your agents need 
to be deputized and armed. Not a specific example, but give me 
a hypothetical example of the kinds of things your agents might 
be looking at in terms of contracts that are fraudulent or--
just give us an example of that.
    Mr. Leary. Whenever you serve a warrant, the practice is 
that somebody needs to be armed because it is an inherently 
dangerous activity. In fact, I am glad you brought this up at 
this point. I have two things I would like to submit to the 
record.
    Chairman Blunt. Alright, what would they be?
    Mr. Leary. One of them is an article that was written by 
Glenn Fine who is now the Acting IG for the Department of 
Defense, but at the time was the IG for the Department of 
Justice, and he wrote an article about the passage of the 
Homeland Security Act in 2002. That article, there was a 
provision in that Act that gave law enforcement authority to a 
number of IG offices, all of them Presidential appointment 
offices or PAS offices, and he explains why that happened and 
why the authority was needed.
    Interestingly, there is no distinction in here as to why 
those offices would get it and other offices would not. We 
perform the same responsibilities and we have the same 
functional needs that those offices had. I want to put that in 
the record because it lays out the argument pretty clearly. The 
other thing I would like to offer is a Congressional Research 
Service article that was published a few years ago in 2014 that 
explains law enforcement authority in the IG community. Both of 
these will help to lay out why our office needs it, why any 
office who does fraud investigations should have it.
    Chairman Blunt. Alright, those in the record without 
objection.
    [The information referred to was submitted for the record.]
    Chairman Blunt. Now in addition to serving warrants, are 
there bid contracts that you think there could potentially be a 
failure to perform or not enough oversight on the bidding 
process, or what do you think the problem there may lie?
    Mr. Leary. In the last couple of years, there have been 
recorded, obviously, we do a lot of procurement contract 
awards. We have had some cases that we have investigated that 
involved failure of adequate oversight. There is a high volume 
of contracting going on. There needs to be better oversight of 
that by the GPO. I actually submitted a report, I think, to 
this office recently, that made note of that. It is an issue. 
They need to be able to oversee the awarding of contracts to 
ensure----
    Chairman Blunt. Do you think the contracts are always 
adequately advertised and competed for when they needed to be?
    Mr. Leary. On the issue of advertisement, I cannot say. 
What I will say is that once they are awarded and how they are 
internally managed, we observed issues. I think GPO, since 
these incidences have arisen, have changed their policies. 
Certainly, they have actually come back to me and agreed with 
my findings and said that they would change.
    Chairman Blunt. Why wouldn't you know if they changed their 
policies or not, isn't that your job?
    Mr. Leary. Certainly. I just--I actually have just received 
about a month ago the response to the report that I issued 
internally to them about a procurement fraud issue where they 
said they agreed with the findings. I think they are in the 
process of making sure that those findings and those 
recommendations are put into place. It has only been 30 days.
    Chairman Blunt. Okay. Senator Hyde-Smith.
    Senator Hyde-Smith. I think you have done an excellent job 
addressing this. I share your concerns about the ability to 
have law enforcement on your side because it is an inherently 
dangerous position to put yourselves in. I have no further 
questions.
    Chairman Blunt. I think we are going to, because of votes, 
I think we are going to draw this to a conclusion here in a 
minute. Is there anything that you wanted to be sure and a 
point you wanted to make today that we have not made yet?
    Mr. Leary. No, Senator. I appreciate the opportunity to 
talk to you particularly about the law enforcement issue. I 
have restructured my office to be more proactive. I think that 
is an important principle. I want my agency to know that I am 
here to partner with them, that I think the more important 
services that an IG can provide to an agency is to help them be 
more effective and efficient. I am focusing on inspections as 
opposed to investigations, and I think that partnership is much 
more fruitful to a GPO than simply emphasizing investigations. 
That is a big piece of what I am doing.
    Chairman Blunt. I noticed one of the people who are here 
backing you up is from the Library. Is there a reason for that? 
Do you not have that support in your agency or----
    Mr. Leary. No, actually, just to be clear, Ms. Lehrich was 
our contract General Counsel until the agency hired Mr. Febbo. 
Mr. Febbo is the very first General Counsel for the IG at GPO. 
Prior to that, we obtained contract support, and Ms. Lehrich 
was actually the part-time General Counsel for me, and the 
full-time General Counsel for the Library of Congress.
    Chairman Blunt. Got it. Got it. I think we are going to 
conclude the hearing now. The record will be open until 5 p.m. 
on July the 31st. I think there are likely to be other 
questions submitted in writing.
    [The information referred to was submitted for the record.]
    Chairman Blunt. This is something that clearly we want to 
be helpful, supportive of. The comments you have made today 
about the law enforcement concerns would be significant, and I 
am sure this will not be the last one of these hearings we will 
have. The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
